No. _________
IN THE SUPREME COURT OF THE UNITED STATES

FRANCISCO COTO-MENDOZA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Kevin Joel Page
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-10451, dated
January 25, 2021, United States v. Coto-Mendoza, 986 F.3d 583.
Appendix B Judgment and Sentence of the United States District Court
for the Northern District of Texas, entered April 30, 2020.
United States v. Coto-Mendoza, Dist. Court 4:19-CR-00366-O-1.

APPENDIX A

Case: 20-10451

Document: 00515717611

Page: 1

Date Filed: 01/25/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

___________

January 25, 2021

No. 20-10451
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Francisco Coto-Mendoza,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-366-1
____________________________
Before Haynes, Duncan, and Engelhardt, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10451

Document: 00515717555

Page: 1

Date Filed: 01/25/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 25, 2021

No. 20-10451

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Francisco Coto-Mendoza,
Defendant—Appellant.
Appeal from the United States District Court
for Northern District of Texas
USDC No. 4:19-CR-366
Before Haynes, Duncan, and Engelhardt, Circuit Judges.
Haynes, Circuit Judge:
Francisco Coto-Mendoza pleaded guilty to illegal reentry after
deportation and was sentenced to 37 months in prison. On appeal, he argues
that his sentence is procedurally unreasonable because the district court did
not adequately explain the reasons for its sentence. We AFFIRM.
I.

Background

Coto-Mendoza is a citizen of El Salvador. He entered the United
States without authorization and has been deported back to El Salvador four
times. During his time in the United States, he has been convicted of theft,

App. A 002

Case: 20-10451

Document: 00515717555

Page: 2

Date Filed: 01/25/2021

No. 20-10451

assault, as well as numerous alcohol related crimes. In his most recent runin with the law, Coto-Mendoza pleaded guilty to re-entering the country
illegally.
Coto-Mendoza’s

Presentence

Investigation

Report

(“PSR”)

recommended a sentencing range of 37 to 46 months, which accounted for
his extensive criminal history.1 At the sentencing hearing, the district court
adopted the PSR’s factual findings, as well as the probation officer’s
conclusions regarding the appropriate Sentencing Guidelines calculations.
The district court also indicated that it had read the sentencing memorandum
submitted by Coto-Mendoza’s counsel.
Coto-Mendoza’s counsel proceeded to ask for a below-Guidelines
sentence

given

Coto-Mendoza’s

age,

difficult

childhood,

gainful

employment, family considerations, and his “mostly nonviolent criminal
history.”

Counsel also acknowledged Coto-Mendoza’s problems with

alcohol but maintained that he planned on going back to El Salvador.
After allowing Coto-Mendoza to speak on his own behalf, the district
court pronounced that, “pursuant to Title 18 U.S.C. § 3553,” CotoMendoza was sentenced to 37 months imprisonment, as well as a term of
supervised release with accompanying conditions. The district court then
asked Coto-Mendoza’s counsel if he had “any objection to any of these
conditions.” Coto-Mendoza’s counsel responded: “No, your Honor.”
Along with the verbal pronouncement, the district court provided a
written Statement of Reasons for Coto-Mendoza’s sentence.

In that

document, the district court noted that Coto-Mendoza’s sentence was
“within the guideline range,” and “[i]n determining the sentence, the

1

Neither party objected to the sentencing range.

2

App. A 003

Case: 20-10451

Document: 00515717555

Page: 3

Date Filed: 01/25/2021

No. 20-10451

[district court] considered the advisory guidelines, as well as statutory
concerns listed in 18 U.S.C. § 3553(a).” The district court opined that the
sentence was “sufficient, but not greater than necessary, to achieve the
Court’s sentencing objectives of punishment, deterrence, and protection of
the public.”

Further, the district court maintained that even if the

Sentencing Guidelines calculations were incorrect, it would still impose the
same sentence under 18 U.S.C. § 3553.
After the district court filed its written judgment, Coto-Mendoza
timely appealed his sentence.
II.

Standard of Review

We undertake a two-step process in reviewing a criminal sentence, in
accordance with the Supreme Court’s decision in Gall v. United States, 552
U.S. 38, 51 (2007). See United States v. Delgado-Martinez, 564 F.3d 750, 752
(5th Cir. 2009).

At step one, we consider whether the district court

committed a “significant procedural error,” such as “failing to adequately
explain the chosen sentence.” Gall, 552 U.S. at 51. If a significant procedural
error was committed, we must remand for resentencing “unless the
proponent of the sentence establishes that the error ‘did not affect the district
court’s selection of the sentence imposed.’” Delgado-Martinez, 564 F.3d at
753 (quoting Williams v. United States, 503 U.S. 193, 203 (1992)). If there
was no significant procedural error, we continue to the second step in the
Gall analysis and “consider the substantive reasonableness of the sentence
imposed under an abuse-of-discretion standard.” Gall, 552 U.S. at 51. Here,
Coto-Mendoza raises only a procedural challenge.
III.

Discussion

Coto-Mendoza only raises one issue on appeal: whether the district
court adequately responded to his arguments for a below-Guidelines

3

App. A 004

Case: 20-10451

Document: 00515717555

Page: 4

Date Filed: 01/25/2021

No. 20-10451

sentence when it merely stated that the sentence was imposed pursuant to 18
U.S.C. § 3553. Coto-Mendoza argues that “sentencing courts have been
required to explain their reasons for rejecting non-frivolous arguments for an
out-of-range sentence[],” and our past decisions have “never authorized a
sentencing court to say as little as it did here.”
Coto-Mendoza focuses his challenge on the standard of review.
Generally, if the defendant failed to object to a procedural error, we review
only for plain error. See Molina-Martinez v. United States, 136 S. Ct. 1338,
1343 (2016).

To succeed on plain error review, the defendant must

demonstrate: (1) “an error that has not been intentionally relinquished or
abandoned”; (2) that is “plain—that is to say, clear or obvious”; and (3)
“affected the defendant’s substantial rights.” Id. Assuming all three of these
conditions are met, we will only exercise our discretion to correct the
forfeited error if it “seriously affects the fairness, integrity or public
reputation of judicial proceedings.” Id. (quotation omitted).
By contrast, while conceding that he did not object to the district
court’s alleged lack of explanation, Coto-Mendoza argues that HolguinHernandez v. United States, 140 S. Ct. 762 (2020), should alter the standard
of review for his unpreserved challenge—namely, that the Supreme Court’s
holding that no separate objection is necessary to preserve a claim of
substantive reasonableness should also extend to Coto-Mendoza’s claim of
procedural reasonableness.

Coto-Mendoza acknowledges the Holguin-

Hernandez Court never addressed the issue of improper procedure, yet he
invites us to reconsider our circuit precedent in light of that decision. We
decline that invitation.
We begin by emphasizing the limited holding of Holguin-Hernandez:
the Supreme Court explicitly stated that it was not deciding the issue of
“what is sufficient to preserve a claim that a trial court used improper

4

App. A 005

Case: 20-10451

Document: 00515717555

Page: 5

Date Filed: 01/25/2021

No. 20-10451

procedures in arriving at its chosen sentence.” Holguin-Hernandez, 140 S. Ct.
at 767.2 We note that the Supreme Court has cautioned against overruling its
earlier precedents by implication. See Agostini v. Felton, 521 U.S. 203, 237
(1997) (“We do not acknowledge, and we do not hold, that other courts
should conclude our more recent cases have, by implication, overruled an
earlier precedent.” (quotation omitted)). Accordingly, we remain bound by
the plain error standard for forfeited errors set forth in Molina-Martinez, 136
S. Ct. at 1343, and United States v. Olano, 507 U.S. 725, 731–32 (1993). See
Agostini, 521 U.S. at 237 (“We reaffirm that ‘[i]f a precedent of this Court
has direct application in a case, yet appears to rest on reasons rejected in some
other line of decisions, the Court of Appeals should follow the case which
directly controls, leaving to this Court the prerogative of overruling its own
decisions.’” (quotation omitted)). Because we hold that Holguin-Hernandez
does not apply to the facts of this case, we review for plain error.3
On the merits, Coto-Mendoza takes issue with the district court’s
brief explanation, arguing that a “bare statutory citation would only barely
explain the sentencing rationale.” Even so, a “brief” explanation does not
necessarily amount to an inadequate one.

The Supreme Court has

acknowledged that “when a judge decides simply to apply the Guidelines to
a particular case, doing so will not necessarily require lengthy explanation.”
Rita v. United States, 551 U.S. 338, 356 (2007). If the defendant “presents

2

This sentiment was reemphasized in Justice Alito’s concurrence. HolguinHernandez, 140 S. Ct. at 767 (Alito, J., concurring) (noting that the Court was not deciding
“what is sufficient to preserve a claim that a trial court used improper procedures in arriving
at its chosen sentence”).
3

Even if we were to use a less demanding standard of review, we would reach the
same conclusion. The record shows that the district judge considered Coto-Mendoza’s,
mitigation arguments, examined the § 3553(a) factors, and provided a reasoned basis for its
decision. See United States v. Becerril-Pena, 714 F.3d 347, 351 (5th Cir. 2013).

5

App. A 006

Case: 20-10451

Document: 00515717555

Page: 6

Date Filed: 01/25/2021

No. 20-10451

nonfrivolous reasons for imposing a different sentence,” circumstances may
sometimes “call for a brief explanation.” Id. at 357.
Assuming

arguendo

that

Coto-Mendoza’s

arguments

were

nonfrivolous, we conclude that the district court provided him an adequate
explanation.4 The district court gave Coto-Mendoza a sentence at the
bottom of the Guidelines range after adopting the PSR’s factual findings and
the probation officer’s conclusions regarding the non-contested Sentencing
Guidelines calculations.

The district court also read the sentencing

memorandum submitted by Coto-Mendoza’s counsel—which included
information about Coto-Mendoza’s childhood, employment, family,
criminal history, and multiple deportations—and heard both CotoMendoza’s counsel’s argument and Coto-Mendoza’s personal request for a
more lenient sentence. Finally, in its written Statement of Reasons, the
district court explained how it “considered the advisory guidelines, as well
as statutory concerns listed in 18 U.S.C. § 3553(a),” and concluded that
Coto-Mendoza’s sentence was “sufficient, but not greater than necessary, to
achieve the Court’s sentencing objectives of punishment, deterrence, and
protection of the public.”5 Indicating that it gave some thought to the matter,
the district court also noted that it would impose the same sentence under 18
U.S.C. § 3553, even if the Guidelines calculations were incorrect.
Examining the facts before us, we cannot conclude that the district
court’s (admittedly brief) explanation of Coto-Mendoza’s sentence

4

In making this determination, we are not limited to the district court’s affirmative
statements about sentencing. See Rita v. United States, 551 U.S. 338, 359 (2007) (noting
that the “context and record” made it clear the sentencing judge considered the evidence
and arguments).
5

We note that “punishment, deterrence, and protection of the public” are all
specific factors to be considered in imposing a sentence. See 18 U.S.C. § 3553(a)(2)(A)–
(C).

6

App. A 007

Case: 20-10451

Document: 00515717555

Page: 7

Date Filed: 01/25/2021

No. 20-10451

amounted to plain error. See United States v. Becerril-Pena, 714 F.3d 347, 34951 (5th Cir. 2013). Upon review of the entire record, we conclude that CotoMendoza has “not shown that the district court committed significant
procedural error in declining to explicitly address his arguments for a shorter
sentence.” Id. at 351.6
For the forgoing reasons, we AFFIRM.

6

Coto-Mendoza seeks to distinguish Becerril-Pena by pointing to the fact the
district court in that case adopted a PSR that “expressly anticipated and addressed
arguments for an out-of-range sentence.” Upon review of the record, we conclude that
many of the arguments Coto-Mendoza’s counsel raised in support of a below-Guidelines
sentence were addressed in the adopted PSR, as well as in the sentencing memorandum,
both of which the district court explicitly reviewed prior to sentencing.

7

App. A 008

APPENDIX B

Case 4:19-cr-00366-O Document 34 Filed 04/30/20

Page 1 of 4 PageID 86

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00366-O(01)
U.S. Marshal’s No.: 70133-279
Shawn Smith for Michael Levi Thomas,
Assistant U.S. Attorney
Michael Lehmann, Attorney for the Defendant

FRANCISCO COTO-MENDOZA

On January 22, 2020 the defendant, FRANCISCO COTO-MENDOZA, entered a plea of guilty as to Count
One of the Indictment filed on December 11, 2019. Accordingly, the defendant is adjudged guilty of such Count,
which involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

8 U.S.C. § 1326(a) and (b)(1)

Illegal Reentry After Deportation

10/16/2017

One

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on December 11, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.
Sentence imposed April 30, 2020.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE
Signed April 30, 2020.

App. B 001

Case 4:19-cr-00366-O Document 34 Filed 04/30/20

Page 2 of 4 PageID 87

Judgment in a Criminal Case
Defendant: FRANCISCO COTO-MENDOZA
Case Number: 4:19-CR-00366-O(1)

Page 2 of 4

IMPRISONMENT
The defendant, FRANCISCO COTO-MENDOZA, is hereby committed to the custody of the Federal
Bureau of Prisons (BOP) to be imprisoned for a term of THIRTY-SEVEN (37) months as to Count One of the
Indictment filed on December 11, 2019.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of TWO
(2) years as to Count One of the Indictment filed on December 11, 2019.
As a condition of supervised release, upon the completion of the sentence of imprisonment, the defendant
shall be surrendered to a duly-authorized immigration official for deportation in accordance with the established
procedures provided by the Immigration and Nationality Act, 8 USC § 1101 et seq. As a further condition of
supervised release, if ordered deported or removed, the defendant shall remain outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant
shall also comply with the standard conditions contained in the Judgment and shall comply with the mandatory
and special conditions stated herein:
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)
( 8)
( 9)
(10)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
App. B 002

Case 4:19-cr-00366-O Document 34 Filed 04/30/20

Page 3 of 4 PageID 88

Judgment in a Criminal Case
Defendant: FRANCISCO COTO-MENDOZA
Case Number: 4:19-CR-00366-O(1)

(11)
(12)
(13)

Page 3 of 4

notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons within 72 hours of release; and,
refrain from any unlawful use of a controlled substance, submitting to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as directed by the probation
officer pursuant to the mandatory drug testing provision of the 1994 crime bill.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

App. B 003

Case 4:19-cr-00366-O Document 34 Filed 04/30/20

Page 4 of 4 PageID 89

Judgment in a Criminal Case
Defendant: FRANCISCO COTO-MENDOZA
Case Number: 4:19-CR-00366-O(1)

Page 4 of 4

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.
United States Marshal
BY
Deputy Marshal

App. B 004

